Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing ServicesGrants to the Quincy, Massachusetts,
Police Department
GR-70-00-004  
December 13, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS) to the Quincy, Massachusetts, Police Department (Quincy).  Quincy received a total of $3,156,563 in COPS grants to hire 39 additional sworn police officers and redeploy 10 sworn police officers to community policing.

Our audit revealed the following.

Quincy officials said that they do not intend to hire 22 of the 39 officers awarded under their Accelerated Hiring, Education, and Deployment (AHEAD) and Universal Hiring Program (UHP) grants.  Therefore, we recommend that COPS deobligate $1,650,000 and put the funds to better use.

	Quincy officials said they did not intend to hire the ten civilians awarded under their 1996 Making Officer Redeployment Effective (MORE 96) grant.  Therefore, we recommend that COPS deobligate $231,563 and put the funds to better use.

	Quincy did not submit timely or accurate monitoring reports.
These items are discussed in the Findings and Recommendations section of the report.  Our Scope and Methodology appear in Appendix II.